No. 19-518
In the

Supreme Court of the United States
Colorado Department of State,
Petitioner,
v.
Micheal Baca, et al.,
Respondents.

On Writ of Certiorari to the United States
Court of A ppeals for the Tenth Circuit

BRIEF OF AMICUS CURIAE THE
COLORADO DEMOCRATIC PARTY IN
SUPPORT OF PETITIONER COLORADO
DEPARTMENT OF STATE
Paul R. Franke, III
Counsel of Record
William F. Jones
Eric B. Liebman
Joyce C. Williams
A llison M. Hester
Moye White LLP
1400 16th Street, 6th Floor
Denver, Colorado 80202
(303) 292-2900
paul.franke@moyewhite.com
Counsel for Amicus Curiae
295736

i
TABLE OF CONTENTS

TABLE OF AUTHORITIES .................................... iii
INTEREST OF AMICUS CURIAE ........................... 1
SUMMARY OF ARGUMENT.................................... 3
ARGUMENT .............................................................. 6
I.
THE COLORADO DEMOCRATIC PARTY
SELECTS, QUALIFIES, AND CERTIFIES
PRESIDENTIAL ELECTORS BASED ON THEIR
COMMITMENT TO CAST THEIR VOTES FOR
THE PREVAILING DEMOCRATIC
CANDIDATES. ....................................................... 6
A.
The Colorado Democratic Party Creates
And Conducts The Process To Designate
Democratic Presidential Electors For Colorado. 7
B.
The Colorado Democratic Party’s Process
To Select Presidential Electors Relies On The
Commitment Of A Selected Presidential Elector
To Cast His Or Her Vote For The Democratic
Nominees for President and Vice President. ...... 9
C.
One Democratic Presidential Elector
Improperly Violated His Commitment In 2016
And Was Properly Replaced. ............................. 15
II.
POLITICAL PARTIES’ EXERCISE OF
CONTROL OVER PRESIDENTIAL ELECTORS
IS CONSISTENT WITH THE UNITED STATES
CONSTITUTION. ................................................. 16

ii
A.
Article II Provides Plenary Power To The
State Of Colorado Over The Appointment Of
Presidential Electors, and Colorado Has
Properly Exercised That Power. ....................... 16
B.
The Twelfth Amendment Reinforces The
Role Of Political Parties To Ensure That
Colorado’s Presidential Electors Cast Their
Votes For The Winner Of The Election In
Colorado. ............................................................ 19
III. THE COMMITMENT OF A
PRESIDENTIAL ELECTOR TO CAST A VOTE
FOR THE WINNER OF THE GENERAL
ELECTION IN COLORADO IS A
FOUNDATIONAL ELEMENT OF OUR
DEMOCRATIC ELECTION SYSTEM ................ 21
CONCLUSION ......................................................... 23

iii

TABLE OF AUTHORITIES
Cases
McPherson v. Blacker, 146 U.S. 1 (1892) .......... 17, 22
Ray v. Blair, 343 U.S. 214 (1952) ............................ 19
Younger v. Harris, 401 U.S. 37 (1971)..................... 22
Constitutional Provisions
U.S. Const. amend. X ............................. 19, 20, 21, 22
U.S. Const. amend. XII ..................................... 19, 20
U.S. Const. art. II ......................................... 16, 17, 20
Statutes
Colo. Rev. Stat. § 1-4-304(1) .......................... 3, 17, 18
Colo. Rev. Stat. § 1-4-304(5) .............. 3, 13, 17, 20, 21
Rules
8 Colo. Code Regs. 1505-1, Rule 24.1.1. .............. 3, 17
Other Authorities
Colorado 2020 Delegate Selection Plan Amended
November 5, 2019 ................................ 10, 11, 12, 13
Kirk Johnson and Campbell Robertson, Coronavirus
and 2020 Elections: What Happens to Voting in an
Outbreak, N.Y. Times, Mar. 9, 2020 .................... 23
Michael M. Grynbaum, TV Networks Face a
Skeptical Public on Election Night, N.Y. Times,
Nov. 7, 2016........................................................... 22

1
INTEREST OF AMICUS CURIAE1
The Colorado Democratic Party is a political
party affiliated with the Democratic Party of the
United States. The Colorado Democratic Party
actively participates in the political process
throughout Colorado. In addition to advocacy and
political organization activities, the Colorado
Democratic Party regularly fields nominated
candidates for office in local, state, and national
elections.
The Colorado Democratic Party is involved in
the selection of the presidential and vice-presidential
nominees for the Democratic Party of the United
States. Through a delegate selection process set
forth in its applicable charter and bylaws, the
Colorado Democratic Party sends delegates and
alternates to the Democratic National Convention to
cast Colorado’s votes for the presidential and
vice-presidential nominees of the Democratic Party
of the United States.
Of particular relevance to this case, the
Colorado Democratic Party selects Presidential
Electors. Several months prior to a general election
in November, the Colorado Democratic Party
conducts a nomination process to select the nine
No counsel for a party authored this brief in whole or
in part, and no such counsel or party made a monetary
contribution intended to fund the preparation or submission of
this brief. No person other than amicus curiae, its members, or
its counsel made a monetary contribution to its preparation or
submission. The parties have consented to the filing of this
brief.
1

2
Presidential Electors, and two alternate Presidential
Electors who will cast Colorado’s votes for President
and Vice President the event the Democratic
nominees get the most votes in Colorado in the
general election.
The selection of Presidential Electors by the
Colorado Democratic Party involves a selfnomination process and a review of qualifications of
any nominated individual. Any nominee is required
to certify in writing that they will vote for the
election of the Democratic presidential and vicepresidential nominees.
After conducting and
supervising this process, the Colorado Democratic
Party then certifies the list of Presidential Electors
to the Colorado Secretary of State.
This case involves the fundamental question
of whether a Presidential Elector is required to cast
a vote in compliance with: Colorado law; the
understanding and expectation of the voters of
Colorado; and the Presidential Elector’s written
certification to the Colorado Democratic Party. As
the entity which identifies, selects, and certifies
Presidential Electors in each federal general election
cycle, the Colorado Democratic Party has a critical
interest in the issues raised within this case arising
out of its historical and ongoing role as the
gatekeeper for Presidential Electors for the State of
Colorado.

3

SUMMARY OF ARGUMENT
The Colorado Democratic Party submits this
amicus curiae brief in support of the Petitioner, the
Colorado Department of State.
As argued in the Brief for Petitioner and as
described infra, each Presidential Elector is bound to
cast his or her vote for the candidates receiving the
most votes for President and Vice President in
Colorado in the federal general election. This is the
basic obligation of a Presidential Elector.
Presidential Electors for Colorado are bound to cast
their votes in this manner by multiple, overlapping
legal requirements, party-mandates, and historical
obligations.
First, Colorado law affirmatively requires a
Presidential Elector both (1) to swear or affirm to
cast his or her vote for the candidates who received
the most votes in Colorado and (2) to cast his or her
vote consistent with that oath. Colo. Rev. Stat. §§
1-4-304(1) & (5); 8 Colo. Code Regs. 1505-1, Rule
24.1.1.
Colorado law also includes enforceable
mechanisms to ensure that Presidential Electors
cast their votes in accordance with their obligations.
Casting a vote for someone other than the candidate
who won Colorado’s election constitutes a “refusal to
act” under state law such that the Colorado
Secretary of State is empowered to remove the
“faithless elector” and replace him or her with an
alternate Presidential Elector who will cast a vote
consistent with the above-described obligations.

4
Second, the Colorado Democratic Party
supervises and conducts a process to identify and
select Presidential Electors who will cast their votes
consistent with their obligations. Nominees for
Presidential Elector certify in writing to the
Colorado Democratic Party that they will vote for the
nominees of the Democratic Party, and the Colorado
Democratic Party runs the process by which
Presidential Electors are nominated, vetted,
selected, and certified to the Colorado Secretary of
State prior to each federal general election. In the
2016 election cycle, one of these Presidential Electors
certified to the Colorado Secretary of State violated
his pledge.
Third, the obligation of a Presidential Elector
is consistent with the Constitution of the United
States. Article II of the Constitution rests broad
plenary power with the State of Colorado to appoint
and control Presidential Electors. This broad power
is further confirmed through the history and
structure of the Twelfth Amendment to the
Constitution which corrected an unworkable voting
structure, and replaced it with one consistent with
the power and role of political parties, setting a
consistent structure that our country continues to
follow today.
Finally, the obligation of a Presidential
Elector to vote for the candidate who wins a State’s
general election has been reaffirmed by the history
and conduct of over two centuries of federal
presidential elections. For the political parties and
the voting public across the country, the certainty

5
and reliability of federal elections for President and
Vice President hinges upon Presidential Electors
casting their votes in a manner consistent with their
obligations.
The reliability and certainty that Presidential
Electors for Colorado will cast their votes for the
candidate who gets the most votes in Colorado is
foundational to Colorado’s democratic election
system.
Belief in this fundamental certainty
underlies the actions and expectations of millions of
Coloradans.
Candidates for office and political
parties conduct entire campaigns in reliance on this
premise. Volunteers in Colorado spend countless
hours organizing and getting out the vote in reliance
on this system. When casting its votes in the federal
general election every four years, the Colorado
voting public itself understands and relies on the
fact that each Presidential Elector will meet their
obligation to cast their vote for the candidates who
win the most votes in Colorado. This systematic and
consistent expectation must be respected.
Colorado’s Presidential Electors are bound to
cast their votes for the candidate who received the
most votes in the state. To eliminate or undercut
this
legallyand
historically-based,
and
commonly-understood, obligation of Presidential
Electors would violate the Constitution, violate
Colorado law, and undermine the presidential
election process upon which our Republic relies. The
Colorado Democratic Party urges this Court reaffirm this fundamental obligation of Presidential
Electors to cast their votes for the candidate who
garnered the most votes in Colorado.

6
ARGUMENT
I. THE COLORADO DEMOCRATIC PARTY
SELECTS,
QUALIFIES,
AND
CERTIFIES
PRESIDENTIAL
ELECTORS
BASED
ON
THEIR
COMMITMENT TO CAST THEIR
VOTES
FOR
THE
PREVAILING
DEMOCRATIC CANDIDATES.
The Colorado Democratic Party is an affiliate
of the national Democratic Party. Since Colorado
was admitted as a state in the United States’
centennial year, 1876, the Colorado Democratic
Party has organized and participated in elections
throughout the state of Colorado at the local, state,
and federal level.
Every four years, Colorado Democrats
participate in the federal general election for
President and Vice President of the United States.
The Colorado Democratic Party establishes and
conducts a process to identify, select, and ultimately
qualify, Presidential Electors. This entire process
rests upon the commitment of Presidential Electors
to cast their votes for the Democratic nominee for
President and Vice President, if those nominees
obtain the most votes in Colorado.
It is critical to note that there is bipartisan
consensus on this issue. Although there may be a
difference in the method by which the Democratic
and Republican political parties select their
Presidential Electors, there is agreement between
the Colorado Democratic Party and the Colorado

7
Republican Party that those Presidential Electors
ultimately selected, if their respective candidates
prevail, are bound to cast their votes for the
presidential and vice-presidential candidate who
received the most votes in Colorado.2
A. The Colorado Democratic Party
Creates And Conducts The Process To
Designate Democratic Presidential
Electors For Colorado.
Every four years, a national general election is
held in November in Colorado and throughout the
United States. Although other political parties
participate in this process, the primary political
parties that participate in the general election have
historically been, for more than a century, the
Democratic and Republican parties. In the months
and years preceding a federal general election, both
the Colorado Democratic Party and the Colorado
Republican Party create and conduct an internal
process to select a slate of Presidential Electors for
each political party in the event that political party’s
candidates for President and Vice President win the
election in Colorado.
Colorado Democratic Party’s Presidential
Elector process is promulgated pursuant to the
applicable charter, bylaws, and regulations of the
Democratic Party of the United States and the
It is the understanding of the Colorado Democratic
Party that an amicus curiae briefs will also be filed by the
Colorado Republican Party and the Republican National
Committee.
2

8
Colorado Democratic Party. In recent years, the
specific aspects of the process related to selecting
Presidential Electors has been contained within the
Colorado Delegate Selection Plan. As relevant to the
facts of this case, this brief will describe the process
as applied in the 2016 general election cycle as well
as the present Delegate Selection Plan as will be
applied to the upcoming 2020 general election.
The Colorado Democratic Party’s State Party
Committee formally adopted a Delegate Selection
Plan that applied to the 2016 election.
Once
adopted, the Delegate Selection Plan was submitted
for review and approval to the Rules and Bylaws
Committee of the Democratic National Committee.
The Committee reviewed the Delegate Selection
Plan and confirmed its compliance with the
applicable rules and regulations of the Democratic
Party of the United States.
Once approved, the Colorado Democratic
Party followed the Delegate Selection Plan for the
2016 election and selected delegates to the
Democratic National Convention for the nomination
of the Democratic candidates for President and Vice
President, as well as for the selection of a slate of
Presidential Electors.
In the 2016 election, nine Presidential
Electors from the State of Colorado participated in
the national election for President and Vice
President. The state Democratic convention selected
the nine Presidential Electors according to
congressional district: each congressional district

9
selected one person to serve as a Presidential
Elector. If any congressional district failed to elect a
Presidential Elector, the state convention would fill
that vacant spot. The Colorado Democratic state
convention also elected two additional Presidential
Electors, along with two alternate Electors.
Following this process, the Colorado Democratic
Party selected the nine Presidential Electors and two
alternate Presidential Electors.
The foregoing
process will generally be applied to the 2020 election
as well.
B. The Colorado Democratic Party’s
Process
To
Select
Presidential
Electors Relies On The Commitment
Of A Selected Presidential Elector To
Cast His Or Her Vote For The
Democratic Nominees for President
and Vice President.
The Colorado Democratic Party creates and
conducts the process to designate Presidential
Electors.
This process is founded upon the
fundamental obligation of a Presidential Elector to
cast his or her vote for the Democratic nominee for
President and Vice President. This fundamental
obligation is not obscure. It is a consistently restated aspect of Colorado’s election process and
relied upon by the Colorado Democratic Party, its
members, and the voting public in Colorado.
Persons who wish to be candidates for the
position of Presidential Elector are required to
self-nominate by application to the Colorado

10
Democratic Party in the March preceding the
national general election in November. At the onset
of this self-nomination process, the Colorado
Democratic Party takes affirmative steps to qualify
nominees and expressly confirm their commitment
to cast a ballot for the Democratic nominees as a
Presidential Elector.
Candidates for Presidential Elector are
required to personally affirm their commitment to
cast a ballot for the Democratic nominee, if
ultimately selected as a Presidential Elector. In the
lead up to the 2016 election cycle, a Statement of
Candidacy for Presidential Elector was required to
be filed with the Colorado Democratic Party by any
person seeking to be a Presidential Elector. This
form, which every candidate signed, expressly
requires each candidate for Presidential Elector to
pledge to support whoever the Democratic
presidential nominee may be.
Similarly, in the upcoming 2020 Delegate
Selection Plan, the Colorado Democratic Party
requires that, “[e]ach candidate for Presidential
Elector shall certify in writing that they will vote for
the election of the Democratic presidential and
vice-presidential nominees.” See e.g., Colorado 2020
Delegate Selection Plan Amended November 5, 2019,
Section VI – Presidential Electors, C.1.
In addition to this required personal written
certification, the Colorado Democratic Party reviews
and qualifies candidates as eligible to be selected as
Presidential Electors. As described in the 2020

11
Delegate Selection Plan, the Colorado Democratic
Party verifies the qualifications of each person
applying to be a Presidential Elector for the express
and stated purpose to:
[E]nsure that the persons selected are bona fide
Democrats who are faithful to the interests,
welfare, and success of the Democratic Party of
the United States, who subscribe to the
substance, intent and principles of the Charter
and the Bylaws of the Democratic Party of the
United States.
Id. at Section VI – Presidential Electors, C.2.
To that end, the Colorado Democratic Party
imposes and verifies the following requirements on
any applicant for Presidential Elector:


An applicant must be a U.S. citizen;



An applicant must be registered to vote as
a Democrat and have been affiliated with
the Democratic Party for at least 12
months preceding the general election in
November.

Id. at Section VI – Presidential Electors, B.
Thus, the Colorado Democratic Party ensures
through its process that persons eligible to be
considered as Presidential Electors have met
fundamental criteria and have certified that the
applicant will, if selected as a Presidential Elector,
cast his or her ballot for the Democratic nominees. If
a person fails to meet the criteria or certify their

12
commitment to so vote, that person is not eligible to
be selected as a Presidential Elector.
A vote is then held at the congressional
district conventions and the Colorado Democratic
State Convention to select the nine Presidential
Electors for Colorado who meet the above-referenced
qualifications. Id. at Section VI – Presidential
Electors, A.
Each of the seven congressional
districts in Colorado elects one eligible candidate to
serve as a Presidential Elector. Id. at Section VI –
Presidential Electors, B.
Two additional
Presidential Electors and two alternatives are
elected from among the eligible candidates at the
Colorado Democratic state convention. Id.
Notably, for purposes of this case, the
Colorado Democratic Party reserves the power to
appoint additional Presidential Electors in the event
any congressional district fails to elect a Presidential
Elector.
Id.
Any such additional Presidential
Elector will be selected by the Colorado Democratic
Party at its state convention. Id.
Following the election of the nine Presidential
Electors and two alternates, the Colorado
Democratic Party certifies the party’s slate of
Presidential Electors to the Colorado Secretary of
State. The 2016 slate of Democratic Presidential
Electors were submitted by the state party chair to
the Colorado Secretary of State in August of 2016.
For the upcoming 2020 election cycle, the state party
chair is required to certify the list of Presidential

13
Electors to the Colorado Secretary of State no later
than four days following their selection. Id.
In addition to this certification process, the
Colorado Democratic Party expressly recognizes that
the Presidential Electors are bound by state law to
cast their votes for the Democratic candidates that
garner more votes than their Republican
counterparts and receive more votes than any other
Democratic candidates. In 2016, the certification of
the Democratic slate of Presidential Electors to the
Colorado Secretary of State expressly noted that the
certification was made, “pursuant to the Laws of the
United States of America and the Law of the State of
Colorado.” Similarly, as stated in the 2020 Delegate
Selection Plan,
Colorado statutes require that Presidential
Electors cast votes for the candidates receiving
the highest number of votes at the preceding
general election. (Colo. VIII, C.R.S. 1-4-304(5))
Id. at Section VI – Presidential Electors, C.2.
As described supra, the Colorado Democratic
Party conducts this process for qualifying, electing,
and certifying Presidential Electors for each fouryear general election. The process and requirements
are set forth in writing, and persons self-nominate to
be considered for Presidential Elector. Any persons
self-nominating know, or should know, these
requirements and how they are obligating
themselves.

14
The entire process hinges on the commitment
of each Presidential Elector to vote for the
Democratic nominees for President and Vice
President. This commitment is made expressly and
in writing as a precondition for eligibility of a person
to be a Presidential Elector. This commitment
underlies the efforts of the Colorado Democratic
Party to impose and review the eligibility
qualifications for Presidential Elector. The Colorado
Democratic Party relies upon this fundamental
commitment throughout the process in following the
rules, exercising its power to designate Presidential
Electors and alternates, and ultimately certifying
the Democratic slate of Presidential Electors and
alternates to the Colorado Secretary of State.
Reliance on this commitment goes well beyond
the Colorado Democratic Party. When Colorado
voters, whether Democrats, Republicans, or
Independents, cast their ballots for the Democratic
nominee for President and Vice President, they are
voting for the person listed on the ballot. The names
of Presidential Electors do not appear on the
Colorado ballot. Voters expect and rely upon the
commitment of the Democratic slate of Presidential
Electors to cast their electoral votes for the
Democratic nominee. Voters do not expect these
unknown persons to cast a vote based on their
individual discretion.
At its core, a slate of
Presidential Electors obligated to vote for the
Democratic candidates is what voters are voting for
when they cast their ballot for the Democratic
nominees for President and Vice President.

15
C. One Democratic Presidential Elector
Improperly Violated His Commitment
In 2016 And Was Properly Replaced.
As relevant to the particular facts of this case,
the Colorado Democratic Party followed the
above-described process described supra, prior to the
2016 general election.3
The Colorado Democratic
Party sent delegates to the 2016 Democratic
National Convention to vote for the nominations of
Hillary Clinton for President and Tim Kaine for Vice
President. The Colorado Democratic Party followed
this process and certified to the Colorado Secretary
of State a slate of nine Presidential Electors and two
alternates, all of whom had made an express
commitment to cast their vote as a Presidential
Elector for the Democratic nominees for President
and Vice President.
Mrs. Clinton and Mr. Kaine received the
highest number of votes in Colorado in the general
election in November 2016.
The Democratic
Presidential Electors were obligated to cast their
votes for Mrs. Clinton and Mr. Kaine by Colorado
law and by their prior commitment made during
their selection process by the Colorado Democratic
Party.
All Presidential Electors met this
commitment, except for Mr. Micheal Baca, a
Respondent in this case. As described in the Brief
The Colorado Democratic Party is presently in the
process of following those same processes for selecting a slate of
Presidential Electors for the upcoming general election in
November 2020.
3

16
for Petitioner, Mr. Baca was properly removed by the
then Colorado Secretary of State and replaced by an
alternate Presidential Elector from the slate certified
by the Colorado Democratic Party. This alternate
Presidential Elector complied with the commitment
and requirement to cast a vote for Mrs. Clinton and
Mr. Kaine. See, Brief for Petitioner, Statement of the
Case, B.1., p. 4. The Colorado Democratic Party
supported and approved of this process as consistent
with its own processes and Colorado law.
II.

POLITICAL PARTIES’ EXERCISE OF
CONTROL
OVER
PRESIDENTIAL
ELECTORS IS CONSISTENT WITH THE
UNITED STATES CONSTITUTION.

As has been the practice and custom in the
United States for more than two centuries, political
parties exercise control over the Presidential
Electors. But this aspect of control did not arise in a
vacuum. It is the direct result of two portions of the
United States Constitution: Article II’s grant of
plenary power to the various States over
appointment of Presidential Electors and the
Twelfth Amendment to the Constitution.
A. Article II Provides Plenary Power To
The State Of Colorado Over The
Appointment Of Presidential Electors,
and Colorado Has Properly Exercised
That Power.
Article II of the Constitution provides States
with the power to appoint electors “in such Manner

17
as the Legislature thereof may direct.” U.S. Const.
art. II, § 1. This is a broad, plenary power, with few
limitations, and certainly does not limit a State’s
ability to control and remove its appointed electors
as it deems appropriate. See McPherson v. Blacker,
146 U.S. 1, 35 (1892) (“Congress is empowered to
determine the time of choosing the electors and the
day on which they are to give their votes, . . . but
otherwise the power and jurisdiction of the State is
exclusive, . . . so framed that Congressional and
Federal influence might be excluded.”).
This broad power includes the authority to
legislate control over the conduct of a Presidential
Elector, including removal of a Presidential Elector.
Colorado has expressly exercised this plenary power
by requiring Presidential Electors to take an oath to
cast a ballot consistent with that oath, and to remove
Presidential Electors for failure to do so.
Colorado law requires each Presidential
Elector to “take the oath required by law for
presidential electors.” Colo. Rev. Stat. § 1-4-304(1).
Colorado has promulgated and administered that
precise oath which requires each Presidential
Elector to cast their ballot “for the presidential
candidate and vice-presidential candidate who
received the highest number of votes at the
preceding general election.” 8 Colo. Code Regs.
1505-1, Rule 24.1.1. Colorado requires Presidential
Electors to cast their ballots consistently with their
oath. Colo. Rev. Stat. § 1-4-304(5).

18
The Colorado Revised Statutes further specify
a mechanism to fill a vacancy of a Presidential
Elector in the event of certain contingencies
including, “death, refusal to act, absence, or other
cause.” Colo. Rev. Stat. § 1-4-304(1). Colorado law
recognizes that the term “failure to act” as set forth
in this statute includes a Presidential Elector
casting a ballot for someone other than the candidate
who won the election in Colorado.
This legal regime is consistent with and
authorized by the plenary grant of power under
Article II of the United States Constitution, which
grants broad authority to the State of Colorado.
Pursuant to this grant, Colorado has exercised its
authority through legislation to require Presidential
Electors to take an oath to vote for the winning
candidates and vote consistently with that oath.
Colorado has also exercised its power to legislate
circumstances where removal of a Presidential
Elector is authorized, and Colorado law includes an
incorrectly-cast ballot as a ground for removal.
This Constitutional structure, as augmented
by Colorado law, is consistent with the Colorado
Democratic Party’s own processes to ensure that its
Presidential Electors meet their obligations to cast a
ballot for the Democratic nominees.

19
B. The Twelfth Amendment Reinforces
The Role Of Political Parties To
Ensure That Colorado’s Presidential
Electors Cast Their Votes For The
Winner Of The Election In Colorado.
Similarly, the Twelfth Amendment does not
limit the States’ appointment power and the
corollary power to control and remove electors.
Rather, the Twelfth Amendment was enacted to
correct a previously unworkable process wherein
electors cast two votes without distinguishing
between President and Vice President, and instead
allow electors to cast distinct votes for these offices.
U.S. Const. amend. XII; see also Ray v. Blair, 343
U.S. 214, 224 n.11 (1952).
The Twelfth Amendment’s enactment also
specifically recognized the influence and importance
of political parties in Presidential elections. See Ray,
343 U.S. at 224 n.11. Without the substantial role of
political parties in federal politics, the Twelfth
Amendment would not have been necessary. The
Twelfth Amendment as enacted would be
unworkable in the absence of a strong and persistent
involvement of political parties. In practice for over
200 years, the substantial role of political parties in
federal elections has dovetailed with the Twelfth
Amendment, just as those who enacted the
amendment intended.
In such instances where a power created by
the Constitution is not delegated to the Federal
government or prohibited from being delegated to

20
the States, such powers “are reserved to the States
respectively, or to the people.” U.S. Const. amend. X.
While the Federal government has the power to
control certain aspects of Presidential elections, the
Constitution does not grant the Federal government
the power to control and remove electors, nor does it
prohibit the states from doing so. It therefore
follows and is consistent with Article II and the
Tenth and Twelfth Amendments, that the States
have the power to enact legislation to appoint,
control, and remove electors and require that
electors vote for their pledged candidate.
As indicated, Colorado’s legislature has
enacted a comprehensive process to appoint
Presidential Electors which includes a requirement
that “[e]ach presidential elector . . . vote for the
presidential candidate and, by separate ballot,
vice-presidential candidate who received the highest
number of votes at the preceding general election in
this state.” Colo. Rev. Stat. § 1-4-304(5). This
process—including
the
“faithful
elector”
requirement—is consistent with Colorado’s federal
constitutional power to appoint, control, and remove
its electors and does not violate the individual
electors’ constitutional rights. Additionally, because
Colorado citizens do not have an opportunity to vote
for electors, this process protects the citizens’ voting
rights, thus underscoring the constitutionality of this
process.

21
III.

THE
COMMITMENT
OF
A
PRESIDENTIAL ELECTOR TO CAST A
VOTE FOR THE WINNER OF THE
GENERAL ELECTION IN COLORADO IS
A FOUNDATIONAL ELEMENT OF OUR
DEMOCRATIC ELECTION SYSTEM.

The Colorado Democratic Party’s procedure
for selecting Presidential Electors, coupled with
applicable Colorado law, achieves Colorado’s goal of
giving voice to the voters of the state of Colorado.
Colo. Rev. Stat. § 1-4-304(5). The requirement that
each elector vote for the candidate who carried the
state merely requires that the elector act as a proxy
for Colorado voters.
In enacting this requirement, Colorado’s
legislature has decided that allowing the electors to
vote their conscience would vest the power to select
the next President of the United States in the hands
of too few, frustrating the rights and expectations of
the candidates, the political parties, and, most
importantly, the voting public in the state of
Colorado. Presidential candidates, upon winning the
majority of the votes in a state, expect that that
state’s electors will ultimately cast their votes for
that candidate. The political parties operate, and
plan based upon the same expectation. Finally, each
voter has the expectation that their voice will be
heard, and that their vote matters. Giving credence
to these expectations is an important purpose of
Colorado’s elector requirements.

22
In this way, Colorado exercises discretion
properly reserved to it as a state within a federal
system.
See U.S. Const. amend. X; see also
McPherson, 146 U.S. at 35–36 (“The appointment of
these electors is thus placed absolutely and wholly
with the legislatures of the several States.”).
Further, “[w]hatever provisions may be made by
statute, or by the state constitution, to choose
electors by the people, there is no doubt of the right
of the legislature to resume the power at any time,
for it can neither be taken away nor abdicated.”)
(internal citations omitted). The Electoral College,
reflective of the notion of federalism itself, is a
delicate balance of power that gives a voice to the
states in a federal system. See Younger v. Harris,
401 U.S. 37, 44 (1971) (“Our Federalism,” a system
which incorporates “sensitivity to the legitimate
interests of both State and National Governments,
and in which the National Government, anxious
though it may be to vindicate and protect federal
rights and federal interests, always endeavors to do
so in ways that will not unduly interfere with the
legitimate activities of the States.”). Allowing each
state to decide for itself the role its Presidential
Electors will play in the Electoral College reflects the
individualism of each unique state in our union.
Colorado’s requirement that each Presidential
Elector vote in accordance with the wishes of
Colorado voters grants important certainty to those
voters. We live in a time where skepticism of
elections, and the election process, is rampant. See
Michael M. Grynbaum, TV Networks Face a
Skeptical Public on Election Night, N.Y. Times, Nov.

23
7, 2016 (discussing skepticism of the 2016 election
process); Kirk Johnson and Campbell Robertson,
Coronavirus and 2020 Elections: What Happens to
Voting in an Outbreak, N.Y. Times, Mar. 9, 2020
(discussing election concerns in light of COVID-19).
By requiring the Presidential Electors’ adherence to
the voices of Colorado voters, Colorado helps to quell
some of that uncertainty.
To remove that
requirement would foster election uncertainty and
undermine voter confidence, a result that this Court
should not countenance.
CONCLUSION
The Colorado Democratic Party urges this
Court to re-affirm the fundamental obligation of a
Presidential Elector from Colorado to vote for the
candidate with the most votes in the federal general
election, consistent with the United States
Constitution, Colorado state law, more than two
centuries of history and conduct, and the resultant
expectations of voters throughout the United States.

24

Respectfully submitted,
Paul R. Franke, III
Counsel of Record
Moye White LLP
1400 16th Street, 6th Floor
Denver, Colorado 80202
paul.franke@moyewhite.com
(303) 292-2900
April 8, 2020

